IN THE SUPREME COURT OF THE UNITED STATES
___________
No. 19-7
SEILA LAW LLC, PETITIONER
v.
CONSUMER FINANCIAL PROTECTION BUREAU
___________
UNOPPOSED MOTION OF PETITIONER FOR DIVIDED ARGUMENT
AND ENLARGEMENT OF TIME FOR ARGUMENT
___________
Pursuant to Rules 21 and 28.4 of the Rules of this Court,
petitioner respectfully moves for an enlargement of the time
allotted to oral argument and for the division of argument among
the parties and the court-appointed amicus curiae as set forth
below.

Petitioner has consulted with both the government and the

court-appointed amicus, and each consents to this motion and to
the proposed structure for oral argument set out below.
1.
questions.

This

petition:

case

The

presents

first

two

question

important

is

the

one

and

substantial

presented

by

the

whether the vesting of significant executive authority

in the Consumer Financial Protection Bureau (CFPB), an independent
agency led by a single director, violates the separation of powers.
Upon

granting

concerning

the

certiorari,
appropriate

the

Court

remedy

added

should

a

second

question

petitioner

prevail:

2

specifically, whether the restriction on the President’s ability
to remove the Director of the CFPB, 12 U.S.C. 5391(c)(3), can be
severed from the remainder of the Dodd-Frank Wall Street Reform
and Consumer Protection Act (Dodd-Frank Act).
Petitioner and the government agree on the question presented
by the petition, but disagree on the question added by the Court.
Petitioner

contends

that

the

structure

of

the

CFPB

is

unconstitutional and that the appropriate remedy in this case is
to reverse the judgment below and either to decline to reach the
question of severability or to hold that the restriction on removal
of the CFPB’s Director is not severable.
with

petitioner

that

the

removal

The government agrees

restriction

violates

the

separation of powers but argues that the Court should hold that
the restriction is also severable from the rest of the Dodd-Frank
Act, and then vacate the judgment below and remand for further
proceedings.

The Court appointed an amicus curiae to defend the

judgment below on the question presented by the petition.
2.

This

case

presents

unusual

circumstances

for

oral

argument, both because petitioner and the government are largely
aligned on the first question presented but not the second and
because the court-appointed amicus is addressing only the first
question.

Accordingly, the parties and the court-appointed amicus

have conferred about the appropriate structure for oral argument.
All

involved

agree

that

divided

argument

is

warranted

among

3

petitioner,

the

government,

and

the

court-appointed

amicus.

Because petitioner and the government are adverse to each other on
the question of remedy, however, it would not be appropriate simply
to divide the time evenly between petitioner and the government,
on the one hand, and the court-appointed amicus, on the other.

A

modest amount of additional time should be allocated to petitioner
and the government to argue their respective positions on the
second

question

presented

--

a

question

on

which

the

court-

appointed amicus takes no position.
3.

In order to accommodate the need for the parties to set

out their competing positions on the second question presented
while affording the court-appointed amicus sufficient time to
argue his position on the first question presented, petitioner
moves to extend the time for oral argument by 10 minutes (to a
total of 70 minutes).

That modest extension would allow the

parties fully to address the complex and important issues in this
case, which the District of Columbia Circuit in PHH Corp. v. CFPB,
881 F.3d 75 (2018), addressed over 125 pages of the Federal
Reporter.

Should the Court grant that request, petitioner further

proposes the following structure for argument:

20 minutes for

petitioner, 20 minutes for the government, and 30 minutes for the
court-appointed amicus. *

*

Petitioner understands that the United States House of
Representatives intends to seek argument time as an additional
amicus curiae supporting the judgment below.
Should the Court

4

Respectfully submitted,
KANNON K. SHANMUGAM
Counsel of Record
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
January 21, 2020

grant that motion, the House would presumably be allotted time
otherwise allotted to the court-appointed amicus.

